H. Appendix

33

Case 3:18-cv-05654-BHS Document 48 Filed 01/18/19 Page 1 of 13

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
JOHN SCANNELL,

CASE NO. Cl8-5654 BHS
Plaintiff,

v.

WASHINGTON STATE BAR
ASSOCIATION, et al.,
Defendants.

ORDER GRANTING
DEFENDANTS’ MOTIONS TO
DISMISS, PLAINTIFF’S MOTION
FOR AN EXTENSION, AND
PLAINTIFF’S MOTION FOR
LEAVE TO FILE AN AMENDED
COMPLAINT; TERMINATING
SOME DEFENDANTS; AND
GRANTING PLAINTIFF LEAVE
TO AMEND

This matter comes before the Court on Defendant Karen Unger’s (“Unger”)
motion to dismiss, Dkt. 16; Defendants State of Washington (“State”), Mary Fairhurst,
Steven Gonzalez, Charles Johnson, Chris Lanese, Barbara Madsen, Sheryl Gordon
McCloud, Susan Owen, Debra Stephens, Charles Wiggens, Kim Wyman (“Wyman”),
and Mary Yu’s (collectively “State Defendants”) motion to dismiss, Dkt. 19; and Plaintiff
John Scannell’s (“Scanned”) motion for extension of time to file responses, Dkt. 28;
Defendant Washington State Bar Association’s (“WSBA”) motion to dismiss, Dkt. 36;
and Scannell’s motion for permission to file an amended complaint, Dkt. 38. The Court

Page 4

Case 3:18-cv-05654-BHS Document 48 Filed 01/18/19 Page 2 of 13

has considered the pleadings filed in support of and in opposition to the motions and the
remainder of the file and hereby rules as follows:
I.

PROCEDURAL AND FACTUAL BACKGROUND

On September 9, 2010, the Washington Supreme Court disbarred Scannell from
the practice of law in Washington. In re Disciplinary Proceeding Against Scannell, 169
Wn.2d 723 (2010). On April 23, 2012, Scannell filed a complaint in this Court
requesting declaratory and injunctive relief and damages resulting from alleged violations
of the Racketeer Influenced and Corrupt Organizations Act (“RICO”), the Sherman Anti
Trust Act (“Sherman Act”), and his civil rights under 42 U.S.C. § 1983. Scannell v.
Washington State Bar Ass ’n, Cause No. C12-0683-SJO, 2014 WL 2094502, at *2 (W.D.
Wash. May 20, 2014) (“Scannell I”). On May 20, 2014, the Court dismissed his claims
with prejudice and without leave to amend. Id. at * 11. On December 3,2016, the Ninth
Circuit affirmed in a memorandum opinion submitted on the briefs without oral
argument. Scannell v. Washington State Bar Ass’h, 671 Fed. Appx. 529, 531 (9th Cir.
2016).
On May 18, 2018, Scannell submitted an application to run for a position on the
Washington Supreme Court. Dkt. 1 at 9, Tf 2.10. On May 21, 2018, Unger filed a petition
in Thurston County Superior Court for the State of Washington challenging Scannell’s
election filing. Dkt. 15-1 at 14. Unger alleged that Scannell’s application violated the
Washington Constitution, which provides that “[n]o person shall be eligible to the office
of judge of the supreme court, or judge of a superior court, unless he shall have been
admitted to practice in the courts of record of this state, or of the Territory of

Page 5

Case 3:18-cv-05654-BHS Document 48 Filed 01/18/19 Page 3 of 13

Washington.” Wash. Const, art. IV, § 17. The Washington Supreme Court has
interpreted this clause as follows:
We think it is clear that the Constitution meant to say that no person is
eligible to the office of judge of the superior court unless he shall have been
admitted to practice in the courts of record in this state, which means that
he not only shall have been, but that he is, at the time he becomes a
candidate or is required to qualify as such judge, entitled to practice in the
courts of this state.
State v. Monfort, 93 Wn. 4, 7 (1916).
On June 1, 2018, Thurston County Superior Court Judge Chris Lanese granted the
petition and ordered Washington Secretary of State Wyman to exclude ScannelTs name
from the primary and general election ballots. Dkt. 15-7 at 1-2. Scannell alleges that
this order is void because its violates the relevant statute that requires all challenges
“shall be heard and finally disposed of by the court not later than five days after the filing
thereof.” RCW § 29A.68.011. Unger filed her challenge on May 21 and Judge Lanese
issued his order more than five days later on June 1. Judge Lanese’s order is generally
not appealable. Parker v. Wyman, 176 Wn.2d 212, 216 (2012) (phrase “finally disposed
of by the court” means “that a decision on a ballot challenge is not appealable.”).
On August 13, 2018, Scannell filed a 180-page complaint against Unger, the State
Defendants, and the WSBA asserting a claim for violation of his civil rights under § 1983
and a violation of the Sherman Act. Dkt. 1. Although he doesn’t explicitly set forth a
RICO claim, he refers to RICO on numerous occasions.
On September 6, 2018, Scannell filed a motion to reassign the matter to an out-of­
district judge. Dkt. 7. On September 13, 2018, the undersigned declined to recuse and

Page 6

Case 3:18-cv-05654-BHS Document 48 Filed 01/18/19 Page 4 of 13

referred the motion to the Honorable Ricardo Martinez, Chief United States District
Judge for the Western District of Washington. Dkt. 12.
On September 14, 2018, Unger moved to dismiss. Dkt. 19. On September 20,
2018, the State Defendants moved to dismiss. Dkt. 19. On October 9, 2018, Scannell
filed a motion for an extension of time to file responses. Dkt. 28. On October 10, 2018,
Scannell responded to both motions. Dkts. 29, 30. On October 12, 2018, the State
Defendants replied. Dkt. 31. On October 17, 2018, Scannell filed a surreply. Dkt. 35.
On October 9, 2018, Chief Judge Martinez affirmed the undersigned’s decision
not to recuse. Dkt. 27.
On October 18, 2018, WSBA filed a motion to dismiss. Dkt. 36. On November 5,
2018, Scannell responded. Dkt. 42.
On October 22, 2018, Scannell filed an amended complaint and a motion for
permission to file an amended complaint. Dkt. 38. On November 1, 2018, WSBA
responded. Dkt. 39. On November 8, 2018, Scannell replied. Dkt. 44.
II. DISCUSSION
A.

Motion to Amend
On October 22, 2018, Scannell filed an amended complaint, adding some

allegations related to filings in this proceeding, asserting the same claims, and adding
Chief Judge Martinez and the undersigned as defendants. Dkt. 37. The Court grants the
motion because it appears that Scannell may be allowed to file an amended claim as a
matter of right and, at the very least, the Court should freely grant leave to amend. Fed.
R. Civ. P. 15(a).

Page 7

Case 3:18-cv-05654-BHS Document 48 Filed 01/18/19 Page 5 of 13

Regarding the new defendants, Scanned added Chief Judge Martinez and the
undersigned in an effort to circumvent the denial of his motion to reassign the instant
matter to an out-of-district judge. “Where a claim against the assigned judge is so wholly
frivolous that there is no jurisdiction, the assigned judge should be able to decline to
recuse and proceed with dismissing the [claims].” Snegirev v. Sedwick, 407 F.Supp.2d
1093, 1095 (D. Alaska 2006). ScannelPs claims against Chief Judge Martinez and the
undersigned are so frivolous that the Court will dismiss them for lack of subject matter
jurisdiction and proceed to consider the motions to dismiss.
If claims are wholly frivolous, district courts lack subject matter jurisdiction to
consider them. See Fitzgerald v. First E. Seventh St. Tenants Corp., 221 F.3d 362, 363—
64 (2d Cir. 2000) (finding that district courts may dismiss frivolous complaints sua
sponte even when a plaintiff has paid required filing fee). Judges enjoy absolute
immunity from Bivens suits for their rulings, even if those rulings are clearly erroneous
and maliciously motivated. See, e.g., Mireles v. Waco, 502 U.S. 9, 11 (1991); Stump v.
Sparkman, 435 U.S. 349, 355-57 (1978).
In this case, Scanned admits that he added Chief Judge Martinez and the
undersigned in order to bring a motion to disqualify the undersigned. The Court finds
that such frivolousness is subject to sua sponte dismissal and is most likely sanctionable
conduct in that Scanned only aims to harass and create delay in adjudicating matters of
substance. Therefore, the Court dismisses with prejudice and without leave to amend ad
of Scannell’s claims against the United States District Court for the Western District of
Washington, Chief Judge Martinez, and the undersigned.

Page 8

Case 3:18-cv-05654-BHS Document 48 Filed 01/18/19 Page 6 of 13

B.

Barred Claims
In this case, the basis for Scanned’s claims are two underlying state court

judgments that Scanned alleges are void. The first judgment is the Washington Supreme
Court’s opinion disbarring him from the practice of law. The Court concludes that
Scannell’s claims based on this judgment are barred by res judicata. The second
judgment is Judge Lanese’s order granting Unger’s petition to remove Scannell’s name
from the primary and general election ballots. The Court concludes that Scannell’s
claims based on this judgment are barred by the Rooker-Feldmen doctrine. Accordingly,
the Court grants the State Defendants and the WSBA’s motions to dismiss and dismisses
the majority of Scanned’s claims with prejudice and without leave to amend.
First, res judicata applies “whenever there is (1) an identity of claims, (2) a final
judgment on the merits, and (3) privity between the parties.” Tahoe-Sierra Preservation
Council, Inc. v. Tahoe Regional Planning Agency, 322 F.3d 1064, 1077 (9th Cir. 2003).
“The doctrine of res judicata is meant to protect parties against being harassed by
repetitive actions.” Id. (internal citations omitted). The prior claims and present claims
need not be identical; “identity of claims exists when two suits arise from the same
transactional nucleus of facts.” Id. (internal quotations omitted).
In this case, Scanned asserts identical claims under § 1983, RICO, and the
Sherman Act that were dismissed in his prior action. There is an identity of claims
because his current claims arise from the same transactional nucleus of facts as his
previous claims challenging membership in the WSBA as a prerequisite to practice law in
Washington. See Scanned, 671 Fed. Appx. at 530 (“The district court lacks subject

Page 9

Case 3:18-cv-05654-BHS Document 48 Filed 01/18/19 Page 7 of 13

matter jurisdiction to decide Scannell’s claims for relief under § 1983, RICO,” and the
“state action doctrine bars ScannelFs antitrust claims”); Dkt. 37 at 178-179 (Scannell
seeks a permanent injunction against defendants preventing them “from interfering with
Scanned’s practice of law or attempts to obtain his law license by requiring membership .
. . to the WSBA”). There was a final judgment on the merits. Scannell, 671 Fed. Appx.
at 530. There is privity of parties because Scannell alleges that the WSBA and that the
other defendants control the WSBA. Dkt. 39 at 178-79; Tahoe-Sierra Pres. Council, 322
F.3d at 1081 (“Even when the parties are not identical, privity may exist if there is
substantial identity between parties, that is, when there is sufficient commonality of
interest.” (internal quotations omitted)). Therefore, to the extent that Scannell is asserting
claims related to his disbarment, the claims are barred by res judicata.
Second, Scannell asserts claims related to Judge Lanese’s order removing his
name from the Washington state ballots because Scannell had been disbarred or, more
appropriately, was not licensed to practice law in Washington. The Rooker-Feldman
doctrine takes its name from Rooker v. Fidelity Trust Co., 263 U.S. 413, (1923), and
District of Columbia Court of Appeals v. Feldman, 460 U.S. 462 (1983). “Under
Rooker-Feldman, a federal district court does not have subject matter jurisdiction to hear
a direct appeal from the final judgment of a state court.” Noel v. Flail, 341 F.3d 1148,
1154 (9th Cir. 2003). “[Wjhen a losing plaintiff in state court brings a suit in federal
district court asserting as legal wrongs the allegedly erroneous legal rulings of the state
court and seeks to vacate or set aside the judgment of that court, the federal suit is a
forbidden de facto appeal.” Id. at 1156. Moreover, “[ojnce a federal plaintiff seeks to

Page 10

Case 3:18-cv-05654-BHS Document 48 Filed 01/18/19 Page 8 of 13

bring a forbidden de facto appeal, as in Feldman, that federal plaintiff may not seek to
litigate an issue that is ‘inextricably intertwined’ with the state court judicial decision
from which the forbidden de facto appeal is brought.” Id. at 1158.
ScannelFs de facto appeal of Judge Lanese’s order is obvious from the face of his
complaint. Scannell seeks “injunctive relief against the defendants from enforcing Judge
Lanese’s void order.” Dkt. 37 at 179-80. To the extent Scannell argues that Judge
Lanese’s order is void, the Court finds that any argument seeking to void the order is a de
facto appeal. Although an appeal of Judge Lanese’s order is generally forbidden, the
Washington Supreme Court has invoked its inherent power to review similar election
disputes. Parker, 176 Wn.2d at 217 (accepting review of superior court order denying
petition to remove individual from ballots). Thus, the proper avenue of appeal is through
the Washington courts and then to the United States Supreme Court. Noel, 341 F.3d at
1155 (“A party disappointed by a decision of the highest state court in which a decision
may be had may seek reversal of that decision by appealing to the United States Supreme
Court.”) Such an appeal would have included the argument that Judge Lanese failed to
timely rule on Unger’s petition within the time limit prescribed by the election statute.
Accordingly, the Court grants the motions to dismiss on Scannell’s claims seeking to set
aside Judge Lanese’s order.
To the extent that Scannell seeks a declaration that an official or entity may not
enforce Judge Lanese’s void order, the Court finds that these claims are inextricably
intertwined with his de facto appeal. Scannell must first establish that Judge Lanese’s
order is void in order to argue that it should not be enforced. Therefore, the Court grants

Page 11

Case 3:18-cv-05654-BHS Document 48 Filed 01/18/19 Page 9 of 13

the motions to dismiss on Scannell’s claims regarding enforcement of Judge Lanese’s
order.
C.

Other Claims and Appropriate Relief Against WSBA and State Defendants
Upon review of the complaint and Scanned’s prior litigation history, it is a rational

inference that Scannell’s complaint is intentionally verbose, confusing, and drafted in a
such a way as to only increase the costs of litigation. Nonetheless, the Ninth Circuit has
found an abuse of discretion when this Court failed to thoroughly appease a similar
litigant referenced in Scannell’s complaint, William Scheidler. See Scheidler v. Avery,
599 Fed. Appx. 688 (9th Cir. 2015) (“the district court abused its discretion in dismissing
the first amended complaint without leave to amend.”). “A district court should not
dismiss a pro se complaint unless it is absolutely clear that the deficiencies of the
complaint could not be cured by amendment.” Akhtar v. Mesa, 698 F.3d 1202, 1212 (9th
Cir. 2012) (citation and internal quotation marks omitted). Thus, the Court will assess
what claims, if any, remain and whether leave to amend should be granted.
To the extent any claim remains against the Washington Supreme Court Justices
or Judge Lanese, the Court dismisses any claim with prejudice because they are entitled
to judicial immunity. Stump v. Sparkman, 435 U.S. 349, 364 (1978) (state circuit judge is
immune from suit for all actions within his or her jurisdiction). No amendment will
overcome this immunity. See, e.g., Scannell I, Dkt. 68 (“The Court also finds based on
the facts alleged that Plaintiff cannot possibly amend his Complaint in a way that would
create legally cognizable claims against Judicial Defendants. Plaintiffs claims against
Judicial Defendants are therefore DISMISSED WITHOUT LEAVE TO AMEND.”).

Page 12

Case 3:18-CV-05654-BHS Document 48 Filed 01/18/19 Page 10 of 13

Therefore, Scannell’s claims against these defendants are dismissed with prejudice and
without leave to amend.
Regarding Wyman, the Court finds that it is not absolutely clear what other claims
Scanned asserted against her. Thus, the claims may be dismissed for failure to state a
claim. Fed. R. Civ. P. 12(b)(6). Moreover, it is not absolutely clear whether these claims
could be cured with any amendment. Therefore, the Court grants Wyman’s motion,
dismisses Scanned’s claims against Wyman without prejudice, and grants Scanned leave
to amend his claims against Wyman. i
Regarding the State, the Court finds that it is not absolutely clear what other
claims Scanned asserted against it. For example, Scanned could be presenting a facial
challenge to RCW § 29A.68.011. It is clear, however, that such claims should be
dismissed for failure to state a claim. Fed. R. Civ. P. 12(b)(6). It is not absolutely clear
whether these claims could be cured with any amendment. Therefore, the Court grants
the State’s motion, dismisses Scanned’s claims against the State without prejudice, and
grants Scanned leave to amend his claims against State.
Regarding the WSBA, Scanned asserts at least one clear claim even though others
may be unclear. Scanned asserts that the requirement of membership dues as a
prerequisite to practicing law violates his freedom of association. Dkt. 178-79. While it
seems that Scanned lacks standing to bring this claim because he is not eligible to incur

The Court recognizes that Wyman also moved to dismiss with prejudice on the basis of
Eleventh Amendment immunity and laches, but the confusing nature of Scanned’s claims
prevents the Court from considering these doctrines.

Page 13

Case 3:18-cv-05654-BHS Document 48 Filed 01/18/19 Page 11 of 13

such dues as a disbarred lawyer, WSBA did move to dismiss based on standing.
Regardless, the Court finds that even this claim fails to assert sufficient allegations to
overcome the motion to dismiss. Fed. R. Civ. P. 12(b)(6). Therefore, the Court grants
WSBA’s motion, dismisses Scannell’s claims against the WSBA without prejudice, and
grants Scanned leave to amend his claims against WSBA.
Finally, in some cases the Court must micromanage litigants that give the
appearance of intending to unnecessarily increase the costs of litigation. Scannell’s 180page complaint gives such an appearance. Thus, the Court must put limits on any
amended complaint, which are as follows:
1. Scanned may only name Wyman, the State, and the WSBA as defendants;
2. Scanned may not include claims that have been previously litigated or that
have been dismissed with prejudice; and
3. The amended complaint shad be no longer than twenty-four (24) pages,
shad comply with the formatting requirement in Local Rules W.D. Wash.
LCR 10, and shad not include any footnotes.
Failure to comply with these requirements, without seeking relief or showing good cause
for noncompliance, may result in the imposition of sanctions up to and including
dismissal. Moreover, if the Court imposes monetary sanctions, the Court may require
payment of the sanctions before proceeding on the merits.
D.

Unger’s Motion
In this case, Unger moves to dismiss arguing that nowhere “in the Complaint does

the Plaintiff provide any notice as to the basis for the claim fded against her.” Dkt. 16 at

Page 14

Case 3:18-cv-05654-BHS Document 48 Filed 01/18/19 Page 12 of 13

3. Such an argument places the burden on Scannell to specifically identify the allegations
in the complaint that meet the requirements of “a short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). Scannell fails to do
this, and instead responds that “he opposes [Unger’s] dismissal at this time” and launches
into arguments relating to immunities and the actions of other defendants. Dkt. 30. None
of these arguments overcome his failure to identify the factual allegations that support his
claims or even what claims he asserts against Unger. Therefore, the Court grants Unger’s
motion to dismiss.
Regarding leave to amend, it is unclear whether any amendment could cure the
deficiencies in the complaint. From a general perspective, it is unfortunate that Scannell
included Unger in this complaint because, purely related to this matter, she appears to be
a registered voter exercising her rights under state law. Now, she must expend her
resources defending against claims that cannot even be articulated. Regardless, the Court
must dismiss Scannell’s claims without prejudice and with leave to amend. Mesa, 698
F.3d at 1212. Scannell may include Unger in any amended complaint. The Court,
however, informs Scannell that frivolous claims against Unger will result in sanctions
because voters should not be subjected to vexatious litigation simply for challenging the
accuracy of the State’s ballots.
III. ORDER
Therefore, it is hereby ORDERED that Unger’s motion to dismiss, Dkt. 16, the
State Defendants’ motion to dismiss, Dkt. 19, Scannell’s motion for extension of time to

Page 15

Case 3:18-cv-05654-BHS Document 48 Filed 01/18/19 Page 13 of 13

file responses, Dkt. 28, WSBA’s motion to dismiss, Dkt. 36, and Scanned’s motion for
permission to file an amended complaint, Dkt. 38, are GRANTED.
Scanned’s claims against Chief Judge Martinez, the undersigned, the United States
District Court for the Western District of Washington, Mary Fairhurst, Steven Gonzalez,
Charles Johnson, Chris Lanese, Barbara Madsen, Sheryl Gordon McCloud, Susan Owen,
Debra Stephens, Charles Wiggens, and Mary Yu are DISMISSED with prejudice and
the Clerk shad terminate these defendants.
Scanned’s claims against the State, Wyman, and Unger are DISMISSED without
prejudice and with leave to amend. Scanned may filed an amended complaint as stated
herein no later than January 31, 2019.
Dated this 18th day of January, 2019.

BE^MIN H. SETTLE
United States District Judge

Page 16

Case: 19-35203, 05/14/2020, ID: 11690495, DktEntry: 41-1, Page 1 of 3

« ♦

FILED

NOT FOR PUBLICATION

MAY 14 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOHN R. SCANNELL, Esquire, AKA
Zamboni,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-35203
D.C. No. 3:18-cv-05654-BHS

Plaintiff-Appellant,
MEMORANDUM*

v.

WASHINGTON STATE BAR
ASSOCIATION; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Western District of Washington
Benjamin H. Settle, District Judge, Presiding
Submitted May 6, 2020 *
Before:

BERZON, N.R. SMITH, and MILLER, Circuit Judges.

John R. Scannell, a disbarred Washington attorney, appeals pro se from the
district court’s judgment dismissing his 42 U.S.C. § 1983 action challenging his
disbarment and subsequent removal from the Washington Supreme Court ballot.

*
This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

A'»

Case: 19-35203, 05/14/2020, ID: 11690495, DktEntry: 41-1, Page 2 of 3

. We have jurisdiction under 28 U.S.C. § 1291. We review de novo. Mpoyo v.
Litton Electro-Optical Sys., 430 F.3d 985, 987 (9th Cir. 2005) (dismissal on the
basis of res judicata); Noel v. Hall, 341 F.3d 1148, 1154 (9th Cir. 2003) (dismissal
under the Rooker-Feldman doctrine). We affirm.
The district court properly dismissed Scanned’s claims relating to his
removal from the Washington Supreme Court ballot as barred under the RookerFeldman doctrine because those claims are a “de facto appeal” of a prior state
court decision. Noel, 341 F.3d at 1163-65 (discussing the Rooker-Feldman
doctrine).
The district court properly dismissed Scanned’s claims relating to his
disbarment as barred by the doctrine of res judicata because Scanned raised or
could have raised these claims in his prior federal action which resulted in a final
judgment on the merits. See Mpoyo, 430 F.3d at 987 (elements of federal res
judicata; claims are identical if they arise from the “same transactional nucleus of
facts”).
The district court did not abuse its discretion in denying Scanned’s motions
for recusal because Scanned presented no basis for recusal. See DeNardo v.
Municipality of Anchorage, 974 F.2d 1200, 1201 (9th Cir. 1992) (setting forth
standard of review and explaining that “[t]he fact that [an appellant] sues a bar
association does not require recusal of judges who are members of that bar

2

19-35203

Case: 19-35203, 05/14/2020, ID: 11690495, DktEntry: 41-1, Page 3 of 3

association”); United States v. Studley, 783 F.2d 934, 939 (9th Cir. 1986)
(explaining that “a judge’s prior adverse ruling is not sufficient cause for recusal”).
The district court did not abuse its discretion in denying Scanned’s requests
for a preliminary injunction because Scanned failed to establish a likelihood of
success on the merits of his claims. See Winter v. Natl. Res. Def. Council, 555
U.S. 7, 20, 24 (2008) (setting forth the standard of review and preliminary •
injunction standard).
We reject as meritless Scanned’s contentions regarding the inapplicability of
federal pleading standards in the State of Washington.
We do not consider matters not specifically and distinctly raised and argued
in the opening brief. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
A11 pending motions and requests are denied.
AFFIRMED.

3

19-35203

Case: 19-35203, 08/28/2020, ID: 11806749, DktEntry: 44, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 28 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JOHN R. SCANNELL, Esquire, AKA
Zamboni,
Plaintiff-Appellant,

No.

19-35203

D.C. No. 3:18-cv-05654-BHS
Western District of Washington,
Tacoma

v.

ORDER
WASHINGTON STATE BAR
ASSOCIATION; et al.,
Defendants-Appellees.
Before:

BERZON, N.R. SMITH, and MILLER, Circuit Judges.

The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
Civ. P. 35.
ScannelFs petition for rehearing en banc (Docket Entry No. 43) is denied.
Scanned’s motion to disqualify the panel (Docket Entry No. 42) is denied.
See DeNardo v. Municipality ofAnchorage, 974 F.2d 1200, 1201 (9th Cir. 1992)
(explaining that “[t]he fact that [an appellant] sues a bar association does not
require recusal of judges who are members of that bar association”).
No further filings will be entertained in this closed case.

, *

Case: 19-35203, 08/28/2020, ID: 11806749, DktEntry: 44, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

AUG 28 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JOHN R. SCANNELL, Esquire, AKA
Zamboni,
Plaintiff-Appellant,

No.

19-35203

D.C. No. 3:18-cv-05654-BHS
Western District of Washington,
Tacoma

v.

ORDER
WASHINGTON STATE BAR
ASSOCIATION; et al.,
Defendants-Appellees.
Before:

BERZON, N.R. SMITH, and MILLER, Circuit Judges.

The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
Civ. P. 35.
Scannell’s petition for rehearing en banc (Docket Entry No. 43) is denied.
Scanned’s motion to disqualify the panel (Docket Entry No. 42) is denied.
See DeNardo v. Municipality ofAnchorage, 974 F.2d 1200, 1201 (9th Cir. 1992)
(explaining that “[t]he fact that [an appellant] sues a bar association does not
require recusal of judges who are members of that bar association”).
No further filings will be entertained in this closed case.

